Ti

Q@OCKLE

Legal Briefs E-Mail Address:

contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

Nos. 19-267 & 19-348

OUR LADY OF GUADALUPE SCHOOL,
Petitioner,
v.
AGNES MORRISSEY-BERRU,
Respondent.

ST. JAMES SCHOOL,
Petitioner,
Vv.
DARRYL BIEL, as Personal Representative
of the Estate of Kristen Biel,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF CHRISTIAN
LEGAL SOCIETY, AMERICAN ASSOCIATION OF CHRISTIAN SCHOOLS, ASSOCIATION
OF CHRISTIAN SCHOOLS INTERNATIONAL, THE LUTHERAN CHURCH—MISSOURI
SYNOD, NATIONAL ASSOCIATION OF EVANGELICALS, AND QUEENS FEDERATION OF
CHURCHES AS AMICI CURIAE IN SUPPORT OF PETITIONERS in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
7228 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 10th day of February, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska . Le Qudraw- ,
My Commission Expires Nov 24, 2020 ¢

Notary Public Affiant

 

39357
